                                    March 31, 1999

                                    CLARENCE E. LEWIS, JR.
                                    CHIEF OPERATING OFFICER
                                     AND EXECUTIVE VICE PRESIDENT

                                    YVONNE D. MAGUIRE
                                    VICE PRESIDENT, HUMAN RESOURCES

                                    SUBJECT:	 Accident Reporting Process, Management
                                              Advisory Report Number DS-MA-99-002

                                    This management advisory report highlights the results of our
                                    review of the United States Postal Service (USPS) accident
                                    reporting process (Project 99PR001DS000). We conducted
                                    this review at the request of the USPS Chief Operating
                                    Officer and Executive Vice President.

Objective, Scope and                Our initial objective was to review the accident reporting
Methodology                         process. During our review, we learned that a Headquarters
                                    USPS accident/injury process management team had
                                    examined the current accident reporting process and
                                    finalized a report with recommendations for improvement.
                                    Accordingly, we modified our objective to evaluate whether
                                    the process management team properly identified
                                    weaknesses in the existing process and made appropriate
                                    recommendations. We tested the accuracy of data used by
                                    the team and analyzed the team’s interim and final reports to
                                    determine if their recommendations adequately addressed
                                    the weaknesses in the current process.

                                    In conducting our review, we interviewed appropriate
                                    personnel1 and reviewed USPS policies and other pertinent




1
  We interviewed members of the Headquarters process management team; members of the process management
team oversight team; Safety and Injury Compensation personnel in Cleveland, Ohio and Dallas, Texas; and a Senior
Injury Compensation Specialist in Omaha, Nebraska. We also contacted several Area Vice Presidents.
Accident Reporting Process 	                                                      DS-MA-99-002




                                 documents.2 Our review was conducted between October
                                 1998 and February 1999, using the President’s Council on
                                 Integrity and Efficiency Quality Standards for Inspections.

Results in Brief	                USPS management has recognized weaknesses and taken
                                 steps to improve the accident reporting process. Specifically,
                                 a Headquarters process management team was chartered to
                                 review the process and finalize a report that identified
                                 weaknesses and included recommendations.

                                 While the actions proposed by the process management
                                 team will improve accident reporting, OIG identified additional
                                 opportunities for improvement in the following areas:

                                 •	 A revised plan with target dates should be established to
                                    assess the results of both the Headquarters process
                                    management team and the Mid-West Area process
                                    management team results and determine the feasibility of
                                    implementing the teams’ recommendations.
                                 •	 The recommendations included in the Headquarters
                                    process management team’s final report should be
                                    reassessed to determine if any changes are necessary to
                                    address the Occupational Safety and Health
                                    Administration private sector requirements.
                                 •	 The Human Resources Information System Safety
                                    Subsystem should be updated to reflect accurate
                                    reportability status of accidents categorized as property
                                    damage.

Background 	                     USPS management recognizes that accident analysis is vital
                                 in accident prevention programs. Reports and statistical
                                 analyses are used to identify principal cause factors of
                                 accidents and hazardous conditions and serve to prompt
                                 management action to reduce or eliminate the factors and
                                 conditions. USPS management uses the accident reporting
                                 process as the means of reporting and performing statistical
                                 analyses.

                                 The accident reporting process primarily involves two USPS
2
 Policies and documents reviewed included USPS Injury Compensation Handbook, EL-505; USPS Employee and
Labor Relations Manual; USPS Publication 540; USPS Safety Application Guidebook; PS Form 1769, Accident
Reporting Instructions; and Department of Labor Employment Standards Administration, Office of Workers’
Compensation Programs, Division of Federal Workers Compensation, Timely Notice of Work Injury and When
Injured at Work. We also reviewed completed PS Forms 1769 and Department of Labor forms CA-1 and 2
processed during the period September 1997 through April 1998.

                                                 2
                                      Restricted Information
Accident Reporting Process                                                                   DS-MA-99-002



                                      Human Resources offices: Safety and Injury Compensation.
                                      These offices use the Human Resources Information System
                                      to record and manage all USPS accidents and occupational
                                      injuries and illnesses.

                                      When an accident occurs, the supervisor is responsible for
                                      submitting a PS Form 1769 to the Safety Office. The Safety
                                      Office enters accident data into the Safety Subsystem of the
                                      Human Resources Information System. The Safety,
                                      Subsystem generates an accident log that includes
                                      information regarding the accident, such as name, date, type
                                      reportability,3 and severity.

                                      In case of injury, the supervisor must submit a Form CA-1 or
                                      CA-24 to the Injury Compensation Office. The Injury
                                      Compensation Office is responsible for entering injury
                                      information into the Injury Compensation Subsystem of the
                                      Human Resources Information System. This subsystem
                                      generates an injury log that identifies name, date of injury,
                                      Office of Workers’ Compensation Program forms, and
                                      description of injury.

Headquarters Process                  A process management team was formed at the
Management Team                       Headquarters level to conduct a study of the accident
                                      reporting process and provide recommendations for
                                      improvement. The team consisted of seven members
                                      representing Headquarters, three area offices, one
                                      operations facility and an outside consultant. The team’s
                                      objective was to examine the current processes; systems;
                                      and applicable policies, laws and regulations and develop a
                                      process that could be implemented before Fiscal Year (FY)
                                      1999 that would improve integrity of accident reporting. The
                                      Headquarters process management team visited several
                                      sites and gathered data for process and results indicators.5
                                      The team used the indicators to identify weaknesses in the
                                      process and to formulate recommendations.




3
  Reportability status is determined by the severity of the accident, dollar amount of damage, and type of accident.
4
  Forms CA-1 and CA-2 are for continuation of pay/compensation. Form CA-1 is filed in case of traumatic injury
and CA-2 is filed in case of occupational disease.
5
  A process indicator is a measurement taken at critical points within the process to describe the performance of
either the entire process or a single step within the process. A results indicator is a conformance measurement to
determine the quality of the product or service provided to customers.

                                                      3
                                           Restricted Information
Accident Reporting Process 	                                                              DS-MA-99-002



Process Management                  The Headquarters process management team identified the 

Team Identified                     following weaknesses in the existing process: 

Weaknesses 

                                           a. No reconciliation of unadjudicated6 CA-2 and
                                               Exception reports,7
                                           b. Minimal communication between Safety and Injury
                                               Compensation;
                                           c. Injury Compensation Specialists not reviewing the
                                               workers' compensation duty report;
                                           d. Inconsistent coding of PS Form 1769, block 44,8
                                           e. Supervisors not preparing PS Form 1769 within 24
                                               hours of an accident being reported by an employee;
                                           f.	 Confusion regarding reportability of Job-Related First
                                               Aid Injuries; and
                                           g. Inadequate training of managers and supervisors in
                                               reporting accidents accurately, completely, and
                                               timely.

Process Management                  The Headquarters process management team provided the
Team Recommendations                following recommendations:

                                    1. Make changes/enhancements to the Human Resources
                                       Information System to:
                                       a) Have the capability to print unadjudicated CA-2 roll-up
                                           reports,
                                       b) Prohibit CA-2s from being entered as “hot”,9 and
                                       c) Integrate Safety and Injury Compensation data.

                                    2. Facilitate communication between Safety and Injury
                                       Compensation via:
                                       a) Performance cluster level meetings,
                                       b) National Injury Compensation/Safety joint meetings,
                                          and
                                       c) Written communication between Injury Compensation
                                          and Safety regarding changes in injury documentation.

                                    3. Review the “Workers’ Compensation Injury on Duty
                                       Report” and make corrective annotations for each
                                       accounting period.

6
  Unadjudicated CA-2s are cases in the process of review by the Office of Workers’ Compensation to be either 

accepted as a valid claim or rejected. 

7
  Exception reports are generated by the Human Resources Information System and indicate the existence of injury

claims without reported accidents.

8
  Block 44 of PS Form 1769 indicates severity of an accident. 

9
  “Hot” designates an unadjudicated case as reportable immediately and results in excluding the case from the 

unadjudicated CA-2 report, causing inconsistencies in the Human Resources Information System. 


                                                     4
                                          Restricted Information
Accident Reporting Process                                             DS-MA-99-002



                             4. Reestablish and enhance the original reconciliation report.

                             5. Clarify policies regarding reportability of “Job-Related
                                First Aid Injuries” to eliminate current confusion.

                             6. Provide training to:
                                a) Operations supervisors and managers on investigating
                                   accidents, and
                                b) Safety and Injury Compensation personnel on
                                   accident/injury reporting and Human Resources
                                   Information System use.

Private Sector Recording     USPS has historically been required to comply with federal
Requirements                 Occupational Safety and Health Administration requirements.
                             However, effective September 29, 1998, Congress passed
                             the Postal Employees’ Safety Enhancement Act of 1998,
                             Public Law 105-241, mandating USPS to comply with private
                             sector Occupational Safety and Health Administration
                             requirements. Converting from federal requirements to
                             private sector provisions will require USPS to modify how
                             accident and injury data is reported to the Occupational
                             Safety and Health Administration. Examples of the
                             modifications include reporting accidents and injuries on a
                             calendar year basis versus fiscal year, and calculating, and
                             reporting the actual number of lost workdays versus the
                             number of injuries with lost workdays. Occupational Safety
                             and Health Administration requirements mandate potential
                             penalties, including monetary fines of up to $7,000 per
                             violation for noncompliance.

                             According to USPS officials, the Occupational Safety and
                             Health Administration has granted USPS an extension to
                             April 1, 1999. The USPS Office of Safety and Workplace
                             Assistance indicated that guidance has been provided to area
                             and field offices addressing the new Occupational Safety and
                             Health Administration requirements applicable to USPS.

Observations                 The Headquarters process management team’s final report
                             identified valid weaknesses and included recommendations
                             that would improve the accident reporting process. However,
                             until the recommendations are tested, their impact on system
                             integrity, accuracy and timeliness cannot be validated.

                             The Vice President, Allegheny Area, volunteered the
                             Cleveland District Office as the pilot site to implement the
                             Headquarters process management team’s

                                            5
                                 Restricted Information
Accident Reporting Process 	                                               DS-MA-99-002



                               recommendations. Headquarters Safety and Workplace
                               Assistance officials informed us that the test is in the initial
                               stages of implementation.

                               Although the team’s report identified valid weaknesses and
                               included appropriate recommendations, we observed several
                               areas where opportunities for enhancements exist:

                               •	 revision of plan to assess team results and
                                  recommendations,
                               •	 compliance with Occupational Safety and Health
                                  Administration private-sector recording requirements, and
                               •	 reportability status of accidents with property damage.

Results Assessment Plan 	 During our review, we learned that the Office of Safety and
                          Workplace Assistance provided Area Vice Presidents with a
                          brief presentation of the Headquarters process management
                          team’s work on August 13, 1998. However, the team’s final
                          report on August 19, 1998, was not distributed to the Chief
                          Operating Officer and Area Vice Presidents. Additionally, the
                          Mid-West Area Vice President assembled a process
                          management team to conduct a similar study. Yet, the Mid-
                          West Area process management team’s study is in the initial
                          phase and currently no results were available for review by
                          OIG. Further, Safety and Workplace Assistance officials
                          advised that the results of both teams were to be assessed in
                          January 1999. This assessment did not occur since both
                          teams had not completed their studies. Consequently, a
                          revised plan should be established to assess the results of
                          both teams and determine the feasibility of implementing the
                          teams’ recommendations.

Recording Requirements 	 The Headquarters process management team’s report did not
                         address compliance with Occupational Safety and Health
                         Administration private sector recording requirements. This
                         occurred because the team’s report was issued prior to the
                         effective date of the Postal Employees’ Safety Enhancement
                         Act. Compliance with the Act will require USPS to redesign
                         policies, program systems, accident reporting forms, and
                         training programs. Consequently, implementation of the
                         Headquarters process management team’s
                         recommendations may be limited.




                                              6
                                   Restricted Information
Accident Reporting Process 	                                                                   DS-MA-99-002



Reportability Status 	                Although the Headquarters process management team has
                                      developed recommendations to address the weaknesses
                                      noted in the report, OIG identified another control weakness.
                                      Specifically, the potential exists for supervisors to intentionally
                                      annotate data on the PS Form 1769 for the purpose of
                                      affecting the reportability status of an accident. For example,
                                      motor vehicle accidents are normally reportable,10 however, if
                                      an accident occurs involving a legally parked vehicle, the
                                      accident is categorized as “parked industrial”. Industrial
                                      accidents are reportable only if the amount of property
                                      damage exceeds $500. Therefore, if supervisors report the
                                      estimated cost to repair damages below the threshold
                                      amount, the accident is considered non-reportable. In
                                      addition, there is no mechanism in place to reconcile the
                                      estimated cost to repair property damage to actual costs. If
                                      the estimated cost was recorded below $500, and the actual
                                      cost exceeds the threshold, the reportability status should be
                                      updated in the Human Resources Information System Safety
                                      Subsystem. Because some USPS managers use reportable
                                      accidents as a factor in awarding merit pay for supervisors,
                                      underreporting reportable accidents inversely impacts merit
                                      pay.

Suggestions 	                         We suggest the Chief Operating Officer and Executive Vice
                                      President require:

                                      1. The Headquarters process management team and the
                                         Mid-West Area process management team to establish a
                                         revised plan with target dates to assess the results of both
                                         teams and determine the feasibility of implementing the
                                         teams’ recommendations.

                                      We suggest the Vice President, Human Resources require:

                                      2. The Headquarters process management team to assess
                                         the recommendations included in the final report to
                                         determine whether changes are necessary to address the
                                         Occupational Safety and Health Administration private
                                         sector requirements.




10
  Reportable accidents include all occupational traumatic injuries and illnesses; injuries or fatalities to non-postal
persons; all motor vehicle accidents; property damage of $500 or more; fire damage of $100 or more, and first aid
cases, unless the employee receives two or less treatments from a USPS contract physician.

                                                       7
                                            Restricted Information
Accident Reporting Process                                            DS-MA-99-002



                             3. The Manager, Safety and Workplace Assistance to
                                establish a mechanism to reconcile property damage
                                estimated below $500 to actual costs, and make
                                necessary updates to the reportability status in the Human
                                Resources Information System.

Management                   The Chief Operating Officer and Executive Vice President
Responses                    agreed with our observations and suggestions and stated that
                             the Mid-West Area process management team has been
                             working with the headquarters staff to develop solutions to
                             the initial findings and new reporting requirements of the
                             Postal Employees’ Safety Enhancement Act. Accordingly,
                             the Vice President, Midwest Area Operations; Vice President,
                             Human Resources; and the Manager, Safety and Workplace
                             Assistance are scheduled to meet on April 1, 1999, to assess
                             progress to date and establish a timeline for completion of
                             the process management teams’ effort.

                             The Vice President, Human Resources agreed with our
                             observations and Suggestion 2, but disagreed with
                             Suggestion 3. To summarize, the Vice President, Human
                             Resources stated that once the Postal Employees Safety
                             Enhancement Act changes have been integrated, the
                             Headquarters process management team’s
                             recommendations will be assessed and appropriate changes
                             will be made. Although, USPS management agrees with our
                             observation that the potential exists to have accidents
                             incorrectly recorded based on the $500 limit, the Vice
                             President, Human Resources believes that managers at the
                             local level have adequate opportunity to reconcile repair
                             costs.

                             Management’s verbatim responses are contained in the
                             Appendix.

Evaluation of                Management’s comments to suggestions 1 and 2 are
Management                   responsive to our concerns and should enhance the accident
Responses                    reporting process. However, the Vice President, Human
                             Resources, does not believe that any further action is
                             necessary to address the reconciling of repair costs to
                             ensure accurate recording of the reportability status of
                             industrial accidents. While we agree that there is opportunity
                             for managers to reconcile repair costs, a control weakness
                             nonetheless exists to ensure that industrial accidents are
                             accurately reported. Managers may estimate property
                             damage at below $500, while the subsequent actual cost to

                                            8
                                 Restricted Information
Accident Reporting Process                                           DS-MA-99-002




                             repair may exceed the threshold. In such cases, a control
                             should be implemented to ensure that the reportability status
                             is updated. Since managers use reportable accidents as a
                             factor in awarding merit pay, we believe managers may
                             underestimate property damage in order to keep accidents in
                             a non-reportable status. As such, we will continue to monitor
                             this process.

                             We appreciated the cooperation and courtesies provided by
                             your staff during the review. If you have any questions,
                             please contact me at (703) 248-2300.


                                 //Signed//
                             Colleen A. McAntee
                             Assistant Inspector General
                              for Performance

                             cc: William B. McComb
                                 Alan B. Kiel
                                 John R. Gunnels




                                            9
                                 Restricted Information
Accident Reporting Process                            DS-MA-99-002




Major Contributors to This Report




                                       10
                             Restricted Information
Accident Reporting Process                            DS-MA-99-002




                                         11                      Appendix
                             Restricted Information
Accident Reporting Process                            DS-MA-99-002




                                         12                      Appendix
                             Restricted Information
Accident Reporting Process                            DS-MA-99-002




                                         13                      Appendix
                             Restricted Information
Accident Reporting Process                            DS-MA-99-002




                                         14                      Appendix
                             Restricted Information
